                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A-04090055                                                                   Page 1 of 1



     On 18 August 2004, we received an allegation that the PI (the subject) on an NSF award' misused
     the funds. As part of our initial review of this matter, we discovered that another identical
     Investigation's case2for this allegation had already been opened.) Consequently, this case is closed.




               opened on .-
